Audit Report




OIG-13-042

Community Development Financial Institutions Fund
Implemented Corrective Actions to Address Contract and
Personnel Management Deficiencies

June 27, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report................................................................................................. 1

    Background ................................................................................................ 2

    Objectives, Scope, and Methodology ............................................................. 3

    Previously Reported Findings… ..................................................................... 4

    Corrective Action Verification… .................................................................... 5

Appendices

    Appendix 1:         Management Response ......................................................... 9
    Appendix 2:         Report Distribution ................................................................ 10

Abbreviations

    ARC                 Administrative Resource Center
    BPD                 Bureau of the Public Debt
    CDFI                Community Development Financial Institutions
    COR                 contracting officer representative
    COTR                contracting officer technical representative
    DTAR                Department of the Treasury Acquisition Regulation
    FAR                 Federal Acquisition Regulation
    IBM                 International Business Machines
    IT                  information technology
    JAMES               Joint Audit Management Enterprise System
    OIG                 Department of the Treasury Office of Inspector General
    POC                 point of contact




                        CDFI Fund Implemented Corrective Actions to Address Contract                       Page i
                        and Personnel Management Deficiencies (OIG-13-042)
         This Page Left Intentionally Blank.




CDFI Fund Implemented Corrective Actions to Address Contract   Page ii
and Personnel Management Deficiencies (OIG-13-042)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                     June 27, 2013

                     Donna J. Gambrell
                     Director
                     Community Development Financial Institutions Fund

                     This report presents the results of our review of the corrective
                     actions taken by the Community Development Financial
                     Institutions Fund (Fund) management in response to the
                     recommendations reported as a result of our audit on contract
                     and personnel management issued on September 17, 2009. 1 In
                     brief, we found that Fund management has taken steps to
                     ensure that the deficiencies reported in our prior audit were
                     corrected.

                     The prior audit was conducted at your request to determine
                     whether the Fund’s contract administration practices for its
                     information technology (IT) development and support contracts
                     complied with the Federal Acquisition Regulation (FAR) and the
                     Department of the Treasury Acquisition Regulation (DTAR). We
                     reported that the Fund did not comply with FAR and DTAR
                     requirements in its administration of the General Dynamics IT
                     support contracts. During that audit, an improperly administered
                     personnel action came to our attention which we also reported.
                     Specifically, we found that the Fund did not document its
                     justification for a noncompetitive promotion of a Fund
                     employee. In all, we made six recommendations in our
                     September 2009 report.

                     The recommendations and corrective actions we reviewed and
                     the results of our follow-up are presented in the Corrective
                     Action Verification section of this report. The Fund’s
                     management response to this report is included as appendix 1.

1
  OIG-09-048, CDFI Fund Contract Administration and Personnel Management Practices Need
Improvement

                     CDFI Fund Implemented Corrective Actions to Address Contract         Page 1
                     and Personnel Management Deficiencies (OIG-13-042)
Background

                        Audit follow-up is an integral part of good management and a
                        shared responsibility of management and auditors. Each agency
                        should establish an audit follow-up system to assure the prompt
                        and proper resolution and implementation of audit
                        recommendations. 2 Treasury Directive 40-03, “Treasury Audit
                        Resolution, Follow-Up, and Closure,” requires bureau staff to
                        ensure that (1) audit recommendations are resolved on a timely
                        basis, (2) resolved audit recommendations (i.e., those agreed to
                        by bureau management) are promptly acted upon and that
                        progress with respect to proposed and ongoing corrective
                        actions is adequately monitored, and (3) statistical information
                        and other data are appropriately reported pursuant to all
                        statutory and regulatory requirements.

                        The status of audit recommendations is tracked in the
                        Department of the Treasury’s (Treasury) Joint Audit
                        Management Enterprise System (JAMES), an interactive system
                        accessible to both the Treasury Office of Inspector General
                        (OIG) and management. JAMES contains tracking information
                        on audit reports from their issuance through completion of all
                        actions related to findings and recommendations.

                        The Fund’s JAMES point of contact (POC) coordinates audit
                        recommendation activities with the appropriate Fund program
                        manager and audit liaison. The POC is notified when audit
                        information has been uploaded to JAMES, informs the
                        responsible Fund program manager of the action, and then
                        requests planned corrective action due dates. The POC then
                        enters the corrective action implementation justification into
                        JAMES and closes the planned corrective action. The POC
                        remains in contact with the Treasury Deputy Chief Financial
                        Officer’s Risk and Control Group, the administrators of JAMES,
                        throughout the process and provides monthly status
                        information.




2
    Office of Management and Budget Circular No. A-50 Revised, “Audit Followup”


                        CDFI Fund Implemented Corrective Actions to Address Contract   Page 2
                        and Personnel Management Deficiencies (OIG-13-042)
Objectives, Scope, and Methodology
                       The objective of our corrective action verification was to
                       determine whether Fund management had taken corrective
                       actions responsive to the intent of our previously reported
                       recommendations to improve contract administration and
                       personnel management practices. Of the six recommendations,
                       four were to address contract administration deficiencies, and
                       two were to correct the improperly administered personnel
                       action. We followed up on all six recommendations.

                       To accomplish our objective, we

                           •   reviewed the original findings and recommendations made
                               in the prior report.

                           •   obtained and reviewed the JAMES report for the status of
                               the prior report’s recommendations and corrective
                               actions.

                           •   obtained and reviewed the contract files that the Fund
                               had (1) reconstructed and maintained for the General
                               Dynamics IT services contract and (2) established and
                               maintained for the successor IT services contract, with
                               International Business Machines (IBM).

                           •   reviewed the Fund’s standard operating procedures for
                               procurements and contracts.

                           •   reviewed the interagency agreement between the Fund
                               and Treasury’s Bureau of the Public Debt (BPD), which
                               provides human resource services to the Fund through
                               BPD’s Administrative Resource Center (ARC). 3

                           •   confirmed with a BPD human resource specialist the
                               existence of valid position descriptions for all Fund
                               employees.

3
  Effective October 2012, Treasury consolidated and redesignated BPD and the Financial
Management Service as the Bureau of the Fiscal Service. For purposes of this report, we refer to the
former BPD using its legacy name.

                       CDFI Fund Implemented Corrective Actions to Address Contract              Page 3
                       and Personnel Management Deficiencies (OIG-13-042)
                           •   reviewed the Fund’s history of non-competitive
                               promotions from September 2009 through April 2012.

                       We performed our fieldwork from March to June 2012 at the
                       Fund headquarters in Washington, D.C.

                       We conducted this performance audit in accordance with
                       generally accepted government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe that the evidence obtained provides a reasonable
                       basis for our findings and conclusions based on our audit
                       objectives.

Previously Reported Findings

Prior Finding 1        Key Contract Administration and Decision Documentation Was
                       Missing

                       We reported that the Fund could not provide documentary
                       evidence supporting the contract administration activities
                       performed by Fund contracting officer representatives (COR) for
                       the General Dynamics contracts. 4 As a result, the Fund could
                       not demonstrate that the contractor provided the services
                       required by the contracts. Additionally, the Fund could not
                       provide documentation showing how it determined that using
                       three different agencies–the Federal Aviation Administration,
                       the Department of Commerce, and the General Services
                       Administration–from 1999 until 2010 to perform the
                       contracting officer functions for the contracts were in the best
                       interest of the government.




4
  Our prior audit report used the title, “contracting officer technical representative (COTR).” In this
report, we are using COR in accordance with an Office of Management and Budget September
2011 memorandum, which notified chief acquisition officers and senior procurement executives that
the title “COTR” was being changed to “COR” to align with the updated FAR 1.602-2.

                       CDFI Fund Implemented Corrective Actions to Address Contract                 Page 4
                       and Personnel Management Deficiencies (OIG-13-042)
Prior Finding 2       Personnel Management Practices Were Inadequate

                      We reported that the Fund did not document its justification of
                      a noncompetitive promotion of a Fund contract specialist from
                      GS-13 to GS-14 in July 2006. Additionally, there was no
                      position description for this position. When properly used, the
                      noncompetitive promotion process allows agencies to promote
                      an employee who has performed additional duties and
                      responsibilities not normally required in the employee’s current
                      position description. In this instance, the Fund did not document
                      its rationale for promoting the employee in question, nor did it
                      identify those extra duties and responsibilities that the employee
                      had performed in addition to his normal duties and
                      responsibilities.

Corrective Action Verification
                      Finding 1, Recommendation 1

                      We recommended that the Fund reconstruct and maintain,
                      going forward, the contract administration file for the General
                      Dynamics contracts with all required and pertinent
                      documentation.

                      In response to the recommendation, and in accordance with
                      FAR 4.801, the Fund reconstructed its contract administration
                      file in May 2009 and had since adequately maintained the
                      pertinent General Dynamics documentation. We reviewed the
                      file and determined it contained the records that one would
                      expect to be kept in contract files, such as the original contract,
                      amendments, COR designation letters, invoices, project plans,
                      and status reports. 5 As the contract with General Dynamics
                      ended in September 2010, we also obtained and reviewed the
                      contract with IBM for IT support services, awarded on
                      September 29, 2010. We determined that the Fund had
                      maintained an IBM contract file with the appropriate contract
                      documentation.


5
 FAR 4.803 - Contents of Contract Files provides examples of records normally contained, if
applicable, in contract files.

                      CDFI Fund Implemented Corrective Actions to Address Contract            Page 5
                      and Personnel Management Deficiencies (OIG-13-042)
                      Finding 1, Recommendation 2

                      We recommended that the Fund ensure that Fund CORs
                      adequately monitor contract performance, support contracting
                      officers, and maintain contract administration files that
                      document actions taken to fulfill contract administration
                      responsibilities.

                      In response to the recommendation, the Fund provided Fund
                      CORs with written guidance on their responsibilities and
                      requirements for contract oversight. Based on our review of the
                      contractor files and our discussions with Fund officials, we
                      determined that Fund CORs monitored contract performance by
                      obtaining project plans and reviewing weekly status reports
                      from the contractor. We also determined that Fund CORs
                      controlled and monitored the contract invoice payment process
                      as the invoices that were uploaded to the Bureau of the Fiscal
                      Service’s Invoice Payment Platform cannot be processed for
                      payment until the Fund COR reviewed and approved the invoice
                      charges. 6

                      Finding 1, Recommendation 3

                      We recommended that the Fund develop and implement
                      standard operating procedures that specify required policies and
                      procedures for contract administration and related files,
                      including appropriate managerial controls to comply with FAR
                      requirements for file documentation.

                      In response to the recommendation, the Fund developed and
                      issued a desk guide for staff in January 2011. We obtained and
                      reviewed the guide and determined that it detailed the
                      procurement/contract process from start to finish, required
                      maintenance contract file documentation, and cited the relevant
                      FAR requirements.




6
 The Invoice Processing Platform is offered by Treasury and managed by the Federal Reserve Bank
of Boston. The system is available to federal agencies and their vendors at no charge.

                      CDFI Fund Implemented Corrective Actions to Address Contract            Page 6
                      and Personnel Management Deficiencies (OIG-13-042)
Finding 1, Recommendation 4

We recommended that the Fund ensure that decisions to use
interagency agreements are supported by the appropriate
determination and finding in accordance with the FAR to
demonstrate that using non-Treasury sources for the contract
officer functions is in the best interest of the government.

At the expiration of the General Dynamics contract in
September 2010, the Fund utilized a Treasury source, BPD’s
ARC, for contracting officer services to administer and procure
a new IT support services contract. By committing to use a
Treasury source for contracting officer services, the Fund did
not need to show support for using non-Treasury sources.
Therefore, the Fund met the intent of our recommendation.

Finding 2, Recommendation 1

We recommended that the Fund implement appropriate
management controls to ensure that non-competitive
promotions are properly documented, justified, and approved.

In response to the recommendation, the Fund has posted all
vacancy announcements to Treasury’s Career Connector
system and allowed employees to apply internally. The Fund did
this to ensure an adequately documented, competitive hiring
process. We reviewed the Fund’s history of promotions and
determined that the Fund had not processed any non-
competitive, accretion of duties promotions since we issued our
audit report in September 2009. We confirmed this with an
ARC human resource specialist as ARC maintained all personnel
files and processed all promotions for the Fund.

Finding 2, Recommendation 2

We recommended that the Fund ensure all Fund employees
have valid position descriptions in its official personnel files.

In response to the recommendation, the Fund ensured that all
employees had valid position descriptions. The Fund maintained
a list of all current employees and associated position


CDFI Fund Implemented Corrective Actions to Address Contract        Page 7
and Personnel Management Deficiencies (OIG-13-042)
descriptions. Personnel files were maintained in electronic form
at BPD ARC. We obtained and reviewed the list and confirmed
that all Fund employees had valid position descriptions.


                            * * * * *

We would like to extend our appreciation for the cooperation
and courtesies extended to our staff during the review. If you
have any questions, please contact me at (202) 927-6512. The
major contributors to this report were Myung Han, Audit
Manager, John Gauthier, Auditor-In-Charge, and Jennifer
Adamson, Auditor.


/s/

Michael J. Maloney
Director, Fiscal Service Audits




CDFI Fund Implemented Corrective Actions to Address Contract   Page 8
and Personnel Management Deficiencies (OIG-13-042)
Appendix 1
Management Response




CDFI Fund Implemented Corrective Actions to Address Contract   Page 9
and Personnel Management Deficiencies (OIG-13-042)
Appendix 2
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Community Development Financial Institution Fund

    Director, Community Development Financial Institutions Fund

Office of Management and Budget

    OIG Budget Examiner




CDFI Fund Implemented Corrective Actions to Address Contract   Page 10
and Personnel Management Deficiencies (OIG-13-042)
